           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

   FIELD OFFICE WORKLOAD RELATED
   TO NONCONFIRMATION RESPONSES
        FROM THE EMPLOYMENT
        VERIFICATION PROGRAM

    November 2010   A-03-09-19052




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                           SOCIAL SECURITY
MEMORANDUM

Date:   November 9, 2010                                                                          Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Field Office Workload Related to Nonconfirmation Responses from the Employment
        Verification Program (A-03-09-19052)


        OBJECTIVE
        Our objectives were to evaluate the (1) Social Security Administration’s (SSA) field
        office (FO) workload associated with nonconfirmation responses generated from the
        Employment Verification (E-Verify) program and (2) Agency’s reimbursement process
        for E-Verify.

        BACKGROUND
        E-Verify is a Department of Homeland Security (DHS) program that allows participating
        employers to determine whether newly hired employees 1 are authorized to work in the
        United States under immigration law. 2 SSA supports DHS in operating and
        administering this program. E-Verify allows employers to electronically verify employee
        information taken from the Employment Eligibility Verification form (Form I-9) against
        Federal databases to verify the employment eligibility of both citizens and noncitizens.
        Employers enter employees’ information into DHS’s web-based system. DHS then
        sends the information to SSA to verify that the new hire’s Social Security Number


        1
         Pursuant to Executive Order 13465—Amending Executive Order 12989, as amended, 73 Fed. Reg.
        33285 (June 11, 2008) and 74 Fed. Reg. 26981 (June 5, 2009), as of September 8, 2009, executive
        departments and agencies that enter into contracts are required to ensure that, as a condition of each
        contract, that the contractor agree to use E-Verify to verify the employment eligibility of: (i) all persons
        hired during the contract term by the contractor to perform employment duties within the United States;
        and (ii) all persons assigned by the contractor to perform work within the United States on the Federal
        contract.

        2
          Authority for the E-Verify program is found in Division C, Title IV, Subtitle A, of the Illegal Immigration
        Reform and Immigrant Responsibility Act of 1996, Pub. L. No. 104-208, as amended, 110 Stat. 3009-655
        to 666. See 8 U.S.C. § 1324a notes, which, in part, sets forth changes to 8 U.S.C. 1324a attributable to
        Pub. L. 104-208. The E-Verify Program was extended to all 50 States in the Basic Pilot Program
        Extension and Expansion Act of 2003, Pub. L. No. 108-156, 117 Stat.1944. See 8 U.S.C. § 1101 note,
        which amends 8 U.S.C. 1324a. See Appendix B for details about E-Verify.
Page 2 - The Commissioner


(SSN), name, and date of birth (DoB) match the information in SSA’s Numident record. 3
SSA will also confirm whether the Numident includes an indication of U.S. citizenship. If
so, DHS will confirm work authorization. For all noncitizens and naturalized citizens
whose status SSA cannot confirm, if there is a match with SSA records, DHS then
determines current work authorization status.

E-Verify sends a message to the employer indicating whether the individual is
employment-authorized or there is a mismatch with SSA or DHS data. An SSA
Tentative Nonconfirmation (TNC) is generated when input data do not match SSA’s
Numident. If the individual chooses to contest the TNC response, the employer must
refer the individual to SSA through E-Verify and provide them with the SSA Referral
Notice. 4 The individual has 8 Federal workdays from the date of the SSA Referral
Notice to visit a local FO to resolve the mismatch and to present evidence to support the
request to update or correct the Numident. FO staff may (1) verify documentary
evidence with the issuing agency; (2) process an application for an original or
replacement SSN card for the individual; (3) update SSA’s Numident as appropriate; or
(4) notify the individual when SSA is unable to process an application for an original or
replacement card. When an individual calls the 800-number prior to visiting the FO,
staff may tell them to visit the local FO and provide them with the FO address,
telephone number, and office hours. Further, staff may advise the caller to take
evidence of identity and the SSA TNC referral letter provided by the employer with them
to the FO.

In October 2007, SSA and DHS implemented the Employment Verification SSA
Tentative Nonconfirmation Automated Response (EV-STAR) program, a web-based
system created exclusively for SSA staff to manage and resolve SSA TNCs. EV-STAR,
which is part of E-Verify, allows SSA staff to transmit the disposition of SSA TNC cases
electronically to employers through E-Verify. Specifically, EV-STAR was designed to
control employer TNC referrals, automate replies to the employer, provide consistent
service from all FO staff, and guard numberholder records from improper disclosure.

SSA is reimbursed by DHS for the work it performs in connection with E-Verify because
E-Verify is not part of SSA’s mission to administer Social Security programs. The
Economy Act allows, subject to certain conditions, SSA to recover from DHS all costs
incurred in supporting E-Verify. 5 In addition, the Social Security Act permits SSA to
require that individuals (including Federal agencies) who request information pay the

3
  The Numident is a record of identifying information (such as name, DoB, date of death, mother’s maiden
name, etc.) provided by the applicant on his or her Application for a Social Security Number (Form SS-5)
for an original SSN and subsequent applications for replacement SSN cards. Each record is housed in
the Numident Master File in SSN order.
4
  The E-Verify SSA Referral Notice tells the new hire the reason for the SSA TNC, to visit an SSA FO
within 8 Federal Government workdays to resolve the case, and what documentary evidence to bring to
the FO in order to help resolve the discrepancy. This notice also shows what information the employer
keyed into E-Verify.
5
    The Economy Act of 1932, as amended, 31 U.S.C. § 1535.
Page 3 - The Commissioner


full cost of supplying information for any purpose not directly related to the
administration of the programs under the Social Security Act. 6 These charges
compensate SSA for its work, so the Agency’s appropriation does not bear the costs
that are not directly related to the administration of SSA programs. 7

METHODOLOGY
To accomplish our objective, we obtained Fiscal Year (FY) 2008 E-Verify transaction
data from SSA and DHS. Using these data, we reviewed SSA’s methodology for
determining its E-Verify workload and the related costs to be reimbursed by DHS. In
addition, we reviewed the reimbursable agreements with DHS for FYs 2005 through
2008, the computations used to determine the reimbursement from DHS, and SSA’s
usage of EV-STAR. See Appendix C for more details about our scope and
methodology.

RESULTS OF REVIEW
SSA’s methodology for determining its FY 2008 E-Verify workload and the related
reimbursement costs could be improved because it appeared the current methodology
captured workloads that did not relate to E-Verify. In FY 2008, DHS reimbursed SSA
about $3.8 million because SSA determined that 87,727 individuals either visited an FO
and/or called the 800-number to resolve a TNC response generated by E-Verify.
However, we estimate that 4,125 of these contacts related to other SSA workloads,
such as filing a claim for Social Security benefits. As a result, DHS overpaid SSA about
$159,000 in FY 2008. In addition, the Agency was reimbursed approximately
$462,000 for 15,283 contacts where the purpose of the visit or call could not be
determined based on available data in SSA’s systems.

Furthermore, we found that for FYs 2005 and 2006, SSA did not pursue reimbursement
for all costs incurred in supporting E-Verify. While the Agency received about
$1.5 million for its FO workload for the 2 years, it did not seek reimbursement for system
costs related to processing about 2.7 million E-Verify queries and personnel costs
related to staff responding to calls made to its 800-numbers by individuals and
employers who needed assistance with E-Verify issues. We were not able to determine
how much SSA should have been reimbursed for the 800-number workload because
the calls were not tracked; however, we estimate the Agency should have been
reimbursed about $246,000 for processing the E-Verify queries.




6
    The Social Security Act § 1106(c), 42 U.S.C. § 1306(c).
7
 Limitation on Administrative Expenses is SSA’s basic administrative account and is an annual
appropriation funded by the Social Security and Medicare trust funds.
Page 4 - The Commissioner


Additionally, SSA was not reimbursed timely in FYs 2005 through 2008 as required by
the Economy Act and SSA’s fiscal policy. 8 The Agency did not receive reimbursement
for E-Verify until 10 months to almost 4 years after providing support to DHS for
E-Verify.

Finally, although SSA and DHS developed EV-STAR to improve the disposition of
E-Verify cases, we found FO staff rarely used the program to process E-Verify cases.
FO staff only used EV-STAR to process 10,632 (14 percent) of the 75,791 E-Verify
cases where individuals visited FOs. The low usage of EV-STAR occurred primarily
because FO staff was unaware that individuals were contacting SSA to resolve a TNC
response. We found either the individuals did not provide FO staff with the required
referral letter or they did not advise FO staff about the purpose of their visit. The
Agency recognized this problem and was coordinating with DHS to develop an alert that
would prompt FO staff when to use EV-STAR. At the time of our review, SSA and DHS
were in the early stages of developing this alert and did not know when the new process
would be implemented.

FIELD OFFICE AND 800-NUMBER WORKLOADS RELATED TO E-VERIFY

SSA’s methodology for determining its reimbursement costs for FO and 800-number
workloads for E-Verify needed improvement because it captured workloads that did not
relate to E-Verify. To determine whether an individual visited a FO and/or called the
800-number to resolve a TNC response, SSA matches 9 the SSNs and dates individuals
received a TNC response from E-Verify against the SSNs and dates of contact included
in its Visitor Intake Process (VIP) and Customer Help and Information Program (CHIP)
systems. 10 VIP and CHIP record and track, by SSN, visits to SSA’s FOs and calls to
the 800-number by the public, respectively. When SSNs match, SSA assumes that any




8
  According to section 1535(b) of the Economy Act, 31 U.S.C. § 1535(b), payments made to an agency
providing a service should be paid promptly upon written request and may be made in advance or on
providing the goods or services. Further, SSA’s Administrative Instructions Manual System (AIMS)
Financial Management Manual (FMM), Section 05.02.03.H, dated July 31, 2007 (and in effect until
November 13, 2009), clarifies that advance payments were required before work began on reimbursable
projects and that Federal agencies were required to provide an advance payment equal to 50 percent of
SSA’s estimated costs. On November 13, 2009, SSA’s policy was changed to require that Federal
agencies pay SSA’s actual costs quarterly. While advance payments are allowed under the new policy,
they are no longer required for Federal Agency requestors. See SSA, AIMS, FMM, Section 05.02.03 G.
9
    See Appendix D for more detail about the methodology for determining FO and 800-number workloads.
10
   VIP helps SSA FO staff simplify and control all stages of in-office interviews and appointments. It
keeps track of all in-office interviews and scheduled appointments, monitors visitor and appointment
information, and provides reports and charts on a variety of local office statistical data. CHIP is a
computer program that assists SSA personnel in responding to the public's calls in an accurate, quick,
and consistent manner nationwide. For telephone calls, the CHIP system provides instant access to
knowledge, facts, policies, and other reference materials.
Page 5 - The Commissioner


visit to an FO or call to the 800-number on or after the no-match response date relate to
E-Verify even though individuals have up to 8 Federal workdays 11 to contest a TNC
response.

We found that for FY 2008, SSA was reimbursed about $159,000 for 4,125 visits and
calls by individuals who were not responding to a TNC response. Further, the Agency
was reimbursed about $463,000 for 15,283 contacts where the purpose of the visits or
calls could not be determined based on available data in SSA’s systems. 12

FY 2008 FO and 800-Number Workloads

Based on the methodology discussed above, in FY 2008, SSA was reimbursed about
$3.8 million because it determined that 87,727 individuals had visited a FO or called the
800-number to resolve a TNC response generated by E-Verify. The Agency received
about $3.6 million for 75,791 individuals who visited FOs and about $182,000 for
11,936 individuals who called the 800-number.

For our analysis, we took a conservative approach and reviewed the topic codes
included in the VIP and CHIP systems for the 87,727 individuals to determine whether
their visits to FOs or calls to the 800-number were in response to TNC responses
generated by E-Verify. To manage FO and 800-number workloads, SSA established
topic codes that identify the purpose of a substantive interview with the public. 13 SSA
had not established a topic code for E-Verify to track individuals who visit a FO or call
the 800-number in response to an SSA TNC response. Using the topic codes for the
87,727 individuals, we found (1) 68,319 individuals may have contacted the Agency to
resolve a TNC response, (2) 15,283 individuals contacted the Agency for reasons that
could not be determined, and (3) 4,125 individuals contacted for reasons not related to
E-Verify. 14




11
  New hires have 8 Federal workdays from the date of the SSA Referral Notice to visit a local FO to
resolve the mismatch and to present evidence to support the request to update or correct the Numident.
12
  We did not conduct a detailed analysis of the FO workload for FYs 2005 through 2007.
However, SSA may not have been properly reimbursed for its FO workload in those years. In FYs
2005 and 2006, SSA’s reimbursement for FO workload was based on an estimate because it had
not developed a methodology to track actual visits to FOs by individuals receiving a TNC
response. In FYs 2007, SSA used the same methodology as in FY 2008 to calculate its FO
workload. Therefore, it is likely that SSA was overpaid for its FY 2007 FO workload.
13
   A substantive interview is any interview other than an initial screening interview, which is conducted
solely to determine the reason for the contact. If the individual’s business is addressed during the first
interview, it is considered substantive.
14
  We reviewed other SSA systems (for example the Numident) for a sample of the 87,727 cases to
ensure that the topic codes were sufficiently reliable for the purpose of our review.
Page 6 - The Commissioner


                Table 1: FY 2008 FO and 800-Number E-Verify Contacts
                     Purpose of                Individuals     Reimbursable
                      Contact                Contacted SSA 1       Costs
      E-Verify Related Contact with SSA            68,319      $3,160,500
      Unknown Contact with SSA                     15,283        $462,800
      Non-E-Verify Related Contact with SSA          4,125       $159,300
                       Totals                      87,727      $3,782,600
     Note 1: SSA uses unique SSNs to determine the first FO visit or telephone call after the SSA TNC
             transaction date. When an individual both calls the 800-number and visits a FO, SSA uses the
             FO visits for reimbursement.
We found the following for the 87,727 individuals who received an SSA TNC response:

•    68,319 individuals had contacted SSA to inquire about SSN-related issues. We
     considered these contacts to be related to E-Verify even though SSA had not
     established a topic code for E-Verify because Agency staff follow the same
     procedures to resolve E-Verify TNCs as when they issue original and replacement
     SSN cards. Thus, it appears that SSA should have been reimbursed about
     $3.2 million for these contacts. However, it is important for the Agency to establish a
     topic code for E-Verify to provide better assurance that it is accurately capturing its
     E-Verify workload because some of the 68,319 individuals may not have contacted
     SSA in response to receiving an SSA TNC.
•    15,283 individuals who received an SSA TNC contacted SSA, but the reasons for
     the contacts could not be determined. The topic codes used in VIP and CHIP were
     generic and did not specify the purpose of the contact. Although we could not verify,
     it is possible that at least 4,800 of the 15,283 individuals contacted SSA to resolve a
     TNC response because they first made contact with the Agency within 8 Federal
     workdays after the initial TNC response, as required by E-Verify. The remaining
     10,483 individuals contacted SSA from 9 to 281 days after receiving a TNC
     response. SSA was reimbursed about $462,000 for the contacts the
     15,283 individuals made. 15
•    4,125 individuals who received an SSA TNC contacted SSA to inquire about
     disability and retirement benefits, inquire about earnings records, and report the
     deaths of numberholders. Because these contacts directly related to SSA
     administering its own programs and did not relate to E-Verify, the Agency was
     improperly reimbursed about $159,300 for these contacts. For example, a no match
     was provided to a 65-year-old woman on September 6, 2007 because SSA records
     showed she was a noncitizen who was not eligible to work. Her earnings records
     showed she was not a new hire because she had been working for the same
     employer since 2001. On August 27, 2008, almost 1 year later, she visited an SSA
     FO to file a claim for retirement benefits. This case may have involved SSN misuse
     whereby the individual who was verified used the numberholder’s name and SSN for
     work.

15
  If the 4,800 individuals had contacted SSA to resolve a TNC response, the Agency may have been
improperly reimbursed between $293,000 and $462,000.
Page 7 - The Commissioner


SSA staff acknowledged that the assumptions used in the methodology to determine
the Agency’s FO and 800-number workloads for E-Verify could lead to SSA being
overpaid by DHS. However, the Agency wanted to ensure that it was reimbursed all
costs incurred for supporting E-Verify. We understand why SSA had taken that
approach, but as our analysis shows, SSA may have wrongly assumed that individuals
who visited an FO or called the 800-number in FY 2008 were doing so in response to
receiving an SSA TNC generated by E-Verify. Therefore, we believe the Agency needs
to establish an E-Verify topic code in VIP and CHIP so FO and 800-number workloads
can be properly tracked and reduce the risk of SSA being overpaid by DHS.

REIMBURSEMENT OF SSA’s COSTS FOR E-VERIFY

The Economy Act and SSA’s fiscal policy, subject to certain conditions, allows the
Agency to pursue full cost reimbursement for services, such as E-Verify, rendered to
other agencies. 16 SSA and DHS negotiate and sign reimbursable agreements so SSA
can recover its actual costs incurred in supporting E-Verify. 17 However, we found that
for FYs 2005 and 2006, SSA did not pursue reimbursement for all costs incurred in
supporting E-Verify. Additionally, SSA was not reimbursed timely for FYs 2005 through
2008, as required by policy. 18 The Agency was not reimbursed for E-Verify until
10 months to almost 4 years after providing support to DHS for E-Verify.

Reimbursement for FYs 2005 and 2006

For FYs 2005 and 2006, DHS reimbursed 19 SSA about $1.5 million ($593,000 for
FY 2005 and $891,000 for FY 2006) to cover personnel costs related to FO staff
responding to visits by individuals who contested a TNC response generated by
E-Verify. 20 We found that, in FY 2005, the Agency did not pursue reimbursement for
system costs (personnel and machine) to process about 981,000 E-Verify queries and
personnel costs related to SSA staff responding to calls made to its 800-numbers by
individuals and employers who needed assistance with E-Verify issues. In addition, in
FY 2006, the Agency did not pursue reimbursement for system costs for about
1,756,000 E-Verify queries and personnel costs related to its 800-number workload.

16
     31 U.S.C. § 1535(b) and AIMS, FMM, 05.02.02.B.
17
  Reimbursable agreements are documents signed by SSA and the Federal requestors that define the
terms under which SSA agrees to provide reimbursable services, the period of the agreement, the
authority, functions, and security safeguards.
18
     AIMS, FMM, 05.02.03.H, supra.
19
  SSA did not receive full reimbursement for FYs 2005 and 2006 FO workload until July 2008. We
discuss this in more detail on pages 9 and 10 of the report.
20
  As stated previously, we did not conduct a detailed analysis of the FO workload for FYs 2005 and
2006, therefore, we are not certain of the precise extent to which SSA was not reimbursed properly for
those 2 years. During this period, SSA’s reimbursement for FO workload was based on an estimate
because it had not developed a methodology to track actual visits to FOs by individuals receiving a TNC
response.
Page 8 - The Commissioner


According to Agency staff, this occurred because, in those 2 years, the Agency had not
developed a methodology to track the system and 800-number workload for E-Verify.
Therefore, the Agency absorbed these costs without knowing how much its
appropriation would not be compensated.

Using the reimbursement rates for system costs for subsequent years, 21 we estimate
that SSA was not reimbursed about $246,000 for processing 2.7 million E-Verify queries
for the 2-year period—$88,000 for processing the 981,000 E-Verify queries in FY 2005
and $158,000 for processing 1,756,000 E-Verify queries in FY 2006. We were not able
to determine the amount that should have been reimbursed for the 800-number
telephone calls because the Agency did not track the data needed to determine these
actual costs. In a 2008 report, 22 the Agency acknowledged it provided electronic
information to third parties (for example, State and Federal agencies) for non-program
purposes without charging them to recover its costs. Specifically, the report stated that
SSA was not applying a consistent policy when deciding whether to charge fees for
electronic information exchanges. The lack of clarity may have resulted in the Agency’s
appropriation absorbing costs for non-program services that should have been
reimbursed or mission-related services that could not be performed because of
insufficient resources. The report contained several recommendations, including that
the Agency consider charging full costs for all non-program work it does not otherwise
receive appropriations to perform.

Reimbursement for FYs 2007 and 2008

For FYs 2007 and 2008, SSA improved its cost recovery for E-Verify by ensuring it was
reimbursed its full costs for supporting E-Verify. As shown in Table 2, during the 2-year
period, SSA was reimbursed about $9.5 million from DHS to cover costs associated
with FO and 800-number workloads, system costs for processing E-Verify queries,
development and training costs for EV-STAR, and development costs for an isolated
Numident environment to handle the expected increase in E-Verify queries in the
future. 23




21
  In FYs 2007 and 2008, SSA was reimbursed about $.09 per query to process E-Verify queries. For
example, in FY 2008, SSA received $642,000 to process 7 million E-Verify queries, which totaled
$.09 per query. We used this figure to determine that SSA should have received about $246,000 to
process 2.7 million E-Verify queries for FYs 2005 and 2006.
22
  Electronic Information Exchange Initiative Report to the Commissioner of Social Security, prepared by
the Office of Financial Policy and Operations, August 2008.
23
  According to SSA, the expected benefits of the new isolated Numident included (1) improving the
communication interface between SSA and DHS, (2) reducing risks of slowdown and disruption caused
by competition with SSA workloads running in SSA’s main production facility; (3) adding E-Verify to SSA’s
Disaster Recovery Plan, and (4) enhancing management information to address requests from
stakeholders.
Page 9 - The Commissioner


                      Table 2: Reimbursed Costs for FYs 2007 and 2008
              Reimbursable Costs                        2007              2008             Total
      FO Visits(1)                                    $1,413,000        $3,601,000      $5,014,000
      800-Number Calls                                  $143,000          $182,000        $325,000
      Process E-Verify queries                          $318,000          $642,000        $960,000
      Develop EV-STAR                                 $1,637,000                        $1,637,000
      Develop Isolated Numident                                        $1,527,000       $1,527,000
                   Total Cost(2)                      $3,511,000        $5,952,000      $9,463,000
     Note 1: We determined that, in FY 2008, SSA was overpaid about $159,000 for costs
             associated with FO and 800-number workloads. It is likely these costs were overpaid
             in FY 2007 since the same methodology was used to calculate these costs.
     Note 2: The data sources were Form SSA-1033 and Actual Cost for Reimbursable Services,
             Form SSA-1036, and both Forms included the actual costs (direct and indirect) for E-
             Verify.
Timeliness of Reimbursable Payments

Regarding payments for reimbursable work from Federal agencies, the Economy Act
indicates, in part, that payment shall be promptly made on the written request of the
agency or unit filling an order and may be made in advance or on providing the goods or
services ordered. 24 SSA’s fiscal policy, dated July 2007, required that advance
payments equal to 50 percent should be collected from Federal agencies “before” the
work is performed. 25 Our review found for FYs 2005 through 2008, SSA had not
received payment for costs incurred until 10 to 45 months (nearly 4 years) after DHS
should have made the advance payments (see Table 3). This resulted in SSA’s
appropriation bearing the expense of the work performed on behalf of DHS until it was
reimbursed. In FY 2009, SSA improved the timeliness of signing the agreement and
being reimbursed. The FY 2009 agreement was signed on September 29, 2008, and
SSA received approximately $22 million to cover its costs for supporting E-Verify as of
December 2008.

                            Table 3: SSA’s Reimbursement for E-Verify
                                 Months After                        Months After
                                Beginning of FY          Date        Beginning FY
 Fiscal        Agreement          Agreement             Funds            SSA                Amount
  Year          Signed(1)           Signed               Paid        Reimbursed           Reimbursed
2005            09/2005               12               07/2008            45                $118,000
2006          No Agreement            N/A              07/2008            34                $891,000
2007            06/2007                9               07/2007            10               $3,511,000
2008            07/2008               10               07/2008            10               $5,952,000
Note 1: SSA’s Agreement Covering Reimbursable Services, Form SSA-1235.


24
     31 U.S.C. § 1535(b).
25
  AIMS, FMM, 05.02.03.H supra. As previously noted, this policy was revised and now states Federal
Agencies must pay SSA’s actual costs quarterly. Advance payments are allowed, but not required for
Federal Agency requestors. See AIMS, FMM, 05.02.03 G, November 13, 2009.
Page 10 - The Commissioner


Specifically, our review found the following for FYs 2005 through 2008.

•   In FY 2005, SSA and DHS signed the reimbursable agreement on
    September 30, 2005; about 12 months after SSA performed the reimbursable work.
    At that time, SSA received $475,000 (80 percent) for FO workload associated with
    TNC responses even though SSA’s calculation showed the full cost was about
    $593,000, a difference of about $118,000 (20 percent). SSA received only
    80 percent of its costs because DHS had only set aside $475,000 for this expense
    because it no longer received a separate appropriation for E-Verify. SSA received
    the remaining $118,000 in reimbursement in July 2008 as discussed below.

•   In FY 2006, SSA and DHS did not sign a reimbursable agreement so SSA did not
    receive about $891,000 in reimbursement at that time. Again, SSA was not
    reimbursed for FY 2006 because DHS stated it did not receive a separate
    appropriation for E-Verify. SSA was reimbursed the $891,000 in July 2008 as
    discussed below.

•   In FY 2007, SSA worked on E-Verify for 9 months before signing the reimbursement
    agreement in June 2007 and receiving about $4.8 million in reimbursements from
    DHS in July 2007. According to SSA staff, signing the reimbursement agreement
    and obtaining funds was delayed because of protracted negotiations with DHS
    concerning developing EV-STAR. In July 2008, when SSA reconciled its estimated
    and actual costs for FY 2007, it discovered the actual cost incurred was $3.5 million.
    Thus, SSA was overpaid about $1.3 million. SSA notified DHS that it wanted to be
    reimbursed for its FY 2005 and 2006 workload. As a result, SSA returned the
    $1.3 million overpayment and DHS reimbursed SSA the $118,000 for FY 2005, and
    $891,000 for FY 2006. Thus, SSA was reimbursed 45 and 34 months after the
    payments should have been paid for FYs 2005 and 2006.

In FY 2008, SSA did not have a signed reimbursement agreement before performing
work for E-Verify. SSA signed an agreement with DHS and received about $4.8 million
in July 2008; 10 months after it began incurring costs for E-Verify. SSA staff stated that
signing the reimbursement agreement and obtaining funds was delayed because of
protracted negotiations with DHS concerning the development of the isolated Numident.
In September 2008, SSA received an additional

•   $1.5 million from DHS to start developing the isolated Numident, which increased
    SSA’s total reimbursement to about $6.3 million. In February 2009, SSA returned
    about $362,000 because its actual costs for E-Verify had only totaled about
    $6 million.

We believe both SSA and DHS need to ensure they are following applicable Federal
law and SSA’s fiscal policies when negotiating and authorizing interagency
reimbursable work for E-Verify so agreements are in place and payments are made to
SSA timely to avoid the Agency’s appropriation bearing the costs of E-Verify.
Page 11 - The Commissioner


USE OF EV-STAR BY FO STAFF

SSA and DHS developed EV-STAR to improve the disposition of E-Verify cases.
EV-STAR allows SSA staff to transmit the disposition of SSA TNC cases electronically
to employers through E-Verify. 26 EV-STAR was intended to provide in real time, a
correction of the new hire’s mismatched information that caused the TNC response,
thus reducing employer burden by eliminating the need to resubmit cases after
individuals have resolved SSA TNCs. We looked at FY 2008 EV-STAR data and found
FO staff rarely used EV-STAR to process E-Verify cases. FO staff had only used
EV-STAR to process 10,632 (14 percent) of the 75,791 E-Verify cases where
individuals visited FOs. Using the VIP and CHIP data, we contacted staff in the
100 FOs who had either the highest or lowest volume of E-Verify transactions in FY
2008 to ascertain why FOs rarely used EV-STAR and found:

•     18 FOs indicated they were unaware individuals visited their FOs in response to an
      SSA TNC response from E-Verify. For example, staff in one FO stated they did not
      use EV-STAR because they never had E-Verify related cases. However, SSA’s
      FY 2008 data showed that about 226 individuals who received SSA no-match
      responses visited this FO. Later, the FO staff stated that they did not realize that
      individuals were visiting the office because of SSA TNCs. The FOs indicated that
      the individuals did not advise them they wanted to resolve a TNC response.

•     89 FOs indicated that individuals did not always bring the required referral letter with
      them. The referral letter explains the procedures for resolving a TNC response.
      This may have contributed to FO staff being unaware that individuals were visiting to
      resolve TNC responses. Further, a recent study by a DHS contractor 27 found that
      some employers did not provide workers with the required referral letters for those
      who wanted to contest TNCs. The report stated that 83 of 86 employers had
      indicated they always provided their employees with the referral letters, but of those
      employers, 21 had 1 or more workers who reported not receiving the referral letter.

•     29 FOs indicated they needed additional training or a refresher course on EV-STAR.
      Some stated the EV-STAR training provided in 2007 was not sufficient or they never
      received training on EV-STAR.

Given that individuals may not always bring the TNC referral letters with them when
they visit an FO or remember to advise FO staff about the purpose of their visit, SSA
needs to establish a process to identify when these individuals visit an FO so staff
knows when to use EV-STAR. SSA is aware of the FO staffs’ low usage of EV-STAR
and was coordinating with DHS to develop an alert that would notify them when to use

26
  Before EV-STAR, the individual would visit SSA to resolve any discrepancies and the employer would
have to wait 24 hours after the individual stated they resolved the TNC to resubmit the case. If the
individual did not inform the employer they resolved the TNC, the employer could resubmit the case
10 Federal workdays from the original referral date.
27
     Westat report to DHS, Findings of the E-Verify® Program Evaluation, December 2009.
Page 12 - The Commissioner


the system. At the time of our review, SSA and DHS were in the early stages of
developing this alert and did not know when the new process would be implemented.
We encourage SSA to expedite this new process because if E-Verify were to become
mandatory, the volume of visits to the FOs would increase significantly, 28 which would in
turn force thousands of employers to resubmit cases through E-Verify because SSA is
not sufficiently using EV-STAR.

CONCLUSION AND RECOMMENDATIONS
While SSA made progress with the reimbursable agreement process and
reimbursements for its E-Verify workload, improvements are still needed. We found that
the methodology SSA used to calculate its E-Verify workloads needs improvement,
because it may capture workloads that do not relate to E-Verify. SSA’s methodology
caused the Agency to be overpaid about $159,000 in FY 2008. In addition, in FYs 2005
and 2006, SSA did not always seek reimbursement for all costs incurred for supporting
E-Verify, missing an opportunity to be reimbursed an additional $246,000. We are not
recommending that the Agency collect the difference of $87,000 from DHS because
these figures are estimates. However, we encourage SSA to develop processes that
will ensure SSA is being properly reimbursed its costs for the FO and 800-number
workloads to avoid any under or overpayments in the future. Further, we believe SSA
needs to develop a process to increase the use of EV-STAR so employers are not
burdened with resubmitting cases through E-Verify because SSA is not sufficiently
using EV-STAR.

Accordingly, we recommend SSA:

1. Add E-Verify topic codes to VIP and CHIP so management information can be
   generated to accurately track the FO and 800 number workloads associated with
   E-Verify to ensure the Agency is being reimbursed its full cost for supporting
   E-Verify.

2. Continue to work with DHS to develop a process or system that alerts FO staff to
   use EV-STAR.

3. Send reminders to FO staff to use EV-STAR when processing SSA TNC cases.

4. Evaluate FO staff training needs for EV-STAR and provide training as appropriate.

AGENCY COMMENTS
SSA agreed with three of the four recommendations. SSA did not agree with
Recommendation 1 because the Agency believes it used the best available records
when estimating its costs and that adding topic codes to the VIP and the CHIP would

28
  SSA’s Office of Budget estimated that if E-Verify became mandatory, over a 5-year period, between
210,000 and 700,000 new hires would visit a FO or call the 800-number to resolve a TNC response.
Page 13 - The Commissioner


not give better information to track those costs. However, the Agency indicated it is
considering a new process that may provide better information to track its costs for
E-Verify. Specifically, SSA is currently developing a process whereby a TNC action will
generate an E-Verify alert in SSA’s VIP/Customer Service Record. When a claims
representative (CR) enters a visitor’s SSN into the VIP system, the CR will receive an
alert if that SSN is in the E-Verify TNC data store to remind them to process the case
through EV-STAR. SSA may be able to capture that information and use it in estimating
its reimbursable costs. The Agency plans to implement this new process in March
2011, which may help measure E-Verify costs more accurately.

The Agency’s comments are included in Appendix F.

OIG RESPONSE
Although SSA disagreed with Recommendation 1, we believe the Agency’s alternative
approach meets the intent of our recommendation because it may allow the Agency to
better track its FO workload for E-Verify, which may help prevent SSA from being
reimbursed for workloads that did not relate to E-Verify. Therefore, we encourage SSA
to move forward with implementing this new process so that the Agency can ensure that
it is only being reimbursed costs associated with E-Verify.




                                              Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Description of the Employment Verification Program

APPENDIX C – Scope and Methodology

APPENDIX D – Reimbursement Methodology Field Office and 800-Number Workloads

APPENDIX E – Visitor Intake Process and Customer Help and Information Program
             Topic Codes

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
AIMS       Administrative Instructions Manual System
CHIP       Customer Help and Information Program
CR         Claims Representative
DHS        Department of Homeland Security
DoB        Date of Birth
E-Verify   Employment Verification
EV-STAR    Employment Verification SSA Tentative Nonconfirmation
           Automated Response
FMM        Financial Management Manual
FO         Field Office
FR         Federal Register
FY         Fiscal Year
OIG        Office of the Inspector General
SSA        Social Security Administration
SSN        Social Security Number
TNC        Tentative Nonconfirmation
VIP        Visitor Intake Process


Forms
I-9        Employment Eligibility Verification
SSA-1033   Estimated Cost for Negotiating Reimbursable Services
SSA-1036   Actual Cost for Reimbursable Services
SSA-1235   Agreement Covering Reimbursable Services
SS-5       Application for a Social Security Card
                                                                                   Appendix B

Description of the Employment Verification
Program
The Employment Verification program (E-Verify), formerly known as the Basic
Pilot/Employment Eligibility Verification, is a Department of Homeland Security (DHS)
program whereby participating employers verify whether newly hired employees are
authorized to work in the United States under immigration law. The Social Security
Administration (SSA) supports DHS in operating this program. Employers must register
with DHS to access E-Verify. Participating employers input information about the
individual, including the individual’s name, date of birth (DoB), and Social Security
number (SSN) as well as whether the individual claims to be a U.S. citizen or work-
authorized noncitizen (for noncitizens, the DHS-issued alien or admission number is
also entered), into E-Verify.

The information the employer submits via E-Verify is sent to SSA to verify the name,
SSN, and DoB against SSA’s Numident 1 records. SSA also provides DHS an indication
of U.S. citizenship, as recorded in SSA records. DHS confirms the current employment
authorization for noncitizens. E-Verify will provide one of the following responses:
employment eligibility is authorized or employment eligibility is tentatively not confirmed.

•   Employment Authorized—The data input by the employer matched the information in
    SSA’s and DHS’ databases, and the individual is authorized to work in the United
    States.

•   SSA Tentative Nonconfirmation (SSA TNC)—The data input by the employer did not
    match information in SSA’s Numident. The individual has 8 Federal workdays from
    the date the employer refers the employee to SSA through E-Verify and provides
    them with the SSA Referral Notice. 2

•   DHS Tentative Nonconfirmation (DHS TNC)—The data input by the employer for a
    noncitizen did not match the information in DHS immigration records and/or the DHS
    record shows the individual is not authorized to work. Again, the individual has
    8 Federal workdays to contest the DHS TNC response.


1
  The Numident is a record of identifying information (such as name, DoB, date of death, mother’s maiden
name, etc.) provided by the applicant on his or her Application for a Social Security Number (Form SS-5)
for an original SSN and subsequent applications for replacement SSN cards. Each record is housed in
the Numident Master File in SSN order.
2
  The SSA Referral Notice provides the reason for the SSA TNC response, instructs the individual to visit
an SSA field office (FO) within 8 Federal Government workdays to resolve the case, and instructs the
individual to bring documentary evidence to the FO to resolve the TNC response. This notice also
includes the information the employer entered into E-Verify.

                                                   B-1
As of the end of Fiscal Year 2009, about 156,000 employers, representing about
605,000 locations, were enrolled to use E-Verify. These employers submitted
approximately 8.5 million queries during this period.




                                         B-2
                                                                      Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable Federal law and regulations as well as the Social Security
    Administration’s (SSA) policies and procedures as they relate to interagency
    reimbursable agreements.

•   Gained an understanding of the Employment Verification program (E-Verify),
    E-Verify SSA Tentative Nonconfirmation Automated Response (EV-STAR)
    system, and reimbursable agreement process.

•   Obtained E-Verify related transactions for Fiscal Year (FY) 2008 from SSA’s Visitor
    Intake Process (VIP) and Customer Help and Information Program (CHIP).

•   We reviewed the Numident, Master Beneficiary Record, and Supplemental Security
    Record for 250 of the 87,727 to ensure the topic codes from VIP and CHIP were
    sufficiently reliable for the purpose of the review. We found that the topic codes
    were consistent with information in SSA’s data systems.

•   Obtained the SSA Tentative Nonconfirmation (TNC) transactions SSA used to
    compute the FY 2008 field office (FO) and 800-number workloads.

•   Obtained from Department of Homeland Security (DHS) the FY 2008 SSA TNC
    Employer Case Verification data and the EV-STAR transaction data.

•   To gain an understanding of FO staff procedures for processing SSA TNCs and their
    use of the EV-STAR system, we contacted 100 FOs (10 FOs in each of the
    10 regions) that were visited by individuals who received a TNC response from
    E-Verify. The 100 selected FOs comprised the top 5 FOs with SSA TNC visits and 5
    FOs with the lowest number of visits.

•   Reviewed Reimbursable Agreements between SSA and the DHS for FYs 2005
    through 2009 to determine the amount and timeliness of the reimbursements.

•   Reviewed and discussed with SSA personnel the reimbursable agreement process
    between SSA and DHS for FYs 2005 through 2008.




                                           C-1
We determined that E-Verify data used for this audit were sufficiently reliable to meet
our objective. The entities audited were SSA’s Offices of Enumeration and Medicare
Policy and Earnings, Enumeration and Administrative Systems. Our work was
conducted at the Philadelphia Audit Division, Philadelphia, Pennsylvania, from
April 2009 through March 2010. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.




                                           C-2
                                                                         Appendix D

Reimbursement Methodology Field Office and
800-Number Workloads
The Social Security Administration (SSA) uses a fallout methodology to determine its
field office (FO) and 800-number Employment Verification (E-Verify) program
workloads. The Agency uses the fallout for management information reports and to
calculate SSA’s FO and 800-number E-Verify workload-related costs for reimbursement
from the Department of Homeland Security.

The Agency compares the total number of individuals who are processed by the
E-Verify system with the number of individuals who contact SSA after receiving an SSA
Tentative Nonconfirmation (TNC) during the Fiscal Year (FY). Unique Social Security
numbers (SSN) with a response code of 1, 2, 3, 4, 5, 6, or B, along with the date of the
SSN’s first occurrence, are retrieved from the E-Verify system and then matched to
SSNs contained in the Visitor Intake Process and Customer Help and Information
Process systems (see table below). SSA assumes that any visit or call on or after the
no-match response date relates to E-Verify, and this becomes the number used to
calculate the Agency’s E-Verify FO and 800-number workloads.

                  Table: SSA No Match E-Verify Response Codes
                    Code                Description
                       1       Invalid SSN
                       2       Name match; Date of Birth (DoB) did not
                               match
                       3       Name did not match; DoB match
                       4       Name and DoB did not match
                       5       Matched, but deceased
                       6       Matched, but without permanent work
                               authorization
                       B       SSN did not verify; Other Reason

According to SSA’s E-Verify records, for FY 2008, the Agency processed about 7 million
E-Verify queries. Of the 7 million queries, about 6 million (85 percent) matched SSA
records, and about 1 million (15 percent) did not match SSA records and received an
SSA no match response code. The 1 million queries related to 630,000 individuals who
received a TNC, of which SSA determined that about 88,000 visited an SSA FO,
contacted the teleservice center, or both.
                                                                       Appendix E

Visitor Intake Process and Customer Help and
Information Program Topic Codes
Individuals who conduct business with the Social Security Administration (SSA) will
contact the Agency either by visiting 1 of the approximately 1,300 field offices (FO) or by
calling SSA’s 800-number. To manage the FO and 800-number workloads, SSA
established topic codes, which identify the purpose of a substantive interview with the
public. A substantive interview is any interview other than an initial screening interview,
which is conducted solely to determine the reason for the contact. We found that
112 topic codes were used for the 87,727 individuals who SSA asserted had visited a
FO or called the 800-number to resolve a tentative nonconfirmation response. The
following table provides 20 examples of the topic codes used for 87,727 individuals.

                    Table: Examples of Visitor Intake Process and
                      Customer Help and Information Program
                              Topic Code Descriptions
               1       New/Replacement Social Security Number
               2       Other Issue
               3       Screening Interview
               4       Office Locator
               5       General Inquiry
               6       Benefit Verification
               7       Social Security Number
               8       Disability Insurance Benefits
               9       Replacement Card
               10      Appointment - Claims
               11      Supplemental Security Income Redetermination
               12      Supplemental Security Income Disabled Individual
               13      Benefit Screening
               14      Retirement Insurance Benefits
               15      Earnings Discrepancies
               16      Status of Claim
               17      Representative Payee Issue
               18      Title II Change of Address
               19      Title XVI Change of Address
               20      Social Security Number Verification
                  Appendix F

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      October 15, 2010                                                       Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Field Office Workload Related to
           Nonconfirmation Responses from the Employment Verification Program”
           (A-03-09-19052)--INFORMATION


           Thank you for the opportunity to review the draft report. Attached is our response to the report
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.

           Attachment




                                                          F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "FIELD OFFICE WORKLOAD RELATED TO NONCONFIRMATION
RESPONSES FROM THE EMPLOYMENT VERIFICATION PROGRAM"
(A-03-09-19052)

Thank you for the opportunity to review the subject report. We offer the following responses to
your recommendations.

Recommendation 1

Add E-Verify topic codes to VIP and CHIP so management information can be generated to
accurately track the FO and 800-Number workloads associated with E-Verify to ensure the
Agency is being reimbursed its full cost for supporting E-Verify.

Response

We disagree. Office of Management and Budget (OMB) Circular A-25 provides guidance on
establishing user fees for government services. We referred to Circular A-25 when we
developed our method for determining E-Verify costs so that we could bill the Department of
Homeland Security accordingly. OMB Circular A-25, Section 6.d.1.(e) reads:

       "Full cost shall be determined or estimated from the best available records of the agency,
       and new cost accounting systems need not be established solely for this purpose."

We use best available records when estimating our costs. Adding topic codes to the Visitor
Intake Process (VIP) and the Customer Help and Information Program (CHIP) would not give us
better information to track those costs; however, we are considering a new process that may.

As you state, "E-Verify sends a message to the employer indicating whether the individual is
employment-authorized or there is a mismatch with SSA or DHS data. An SSA Tentative
Nonconfirmation (TNC) is generated when input data does not match SSA's Numident." We are
currently developing a process whereby a TNC action will also generate an E-Verify alert in the
VIP/Customer Service Record (CSR). When a claims representative (CR) enters a visitor's
Social Security number (SSN), the CR will receive an alert if that SSN is in the E-Verify TNC
data store. We may be able to capture that information and use it in estimating our costs.

We plan to implement this process in March 2011, and it may help us to measure E-verify costs
more accurately. We will evaluate its usefulness for that purpose at some point in the future.

We do not agree it would be helpful to add a topic code to CHIP. Callers to the 800 Number
explain their reasons for contacting us. Unless a person mentions a TNC, we would not be able
to determine with certainty that a call relates to an E-Verify issue.




                                               F-2
Recommendation 2
Continue to work with DHS to develop a process or system that alerts FO staff to use EV-STAR.

Response

We agree. In addition to the E-Verify alert we mentioned in our response to recommendation 1,
we are developing a new functionality with DHS that will add two new pop-up alerts to the
Social Security Number Application Process (SSNAP). We use the SSNAP system to add,
update, or modify data on the Numident record. The new SSNAP alerts will notify users of
potential E-Verify cases and prompt users to access the Employment Verification SSA Tentative
Nonconfirmation Automated Response (EV-STAR). We plan to implement this enhancement by
September 2011.

In addition, we are adding a link in SSNAP to take users directly to EV -STAR. This will
provide quick access to EV-STAR from SSNAP. We expect to implement the link by December
2011.

Recommendation 3

Send reminders to FO staff to use EV -STAR when processing SSA TNC cases.

Response

We agree. We are drafting reminder instructions to stress the importance of using EV-STAR.
We expect to release the instructions by December 2010. In addition, we prepared and released
to the regional office for distribution, an EV -STAR quick reference guide for use by field office
staff.

Recommendation 4

Evaluate FO staff training needs for EV-STAR and provide training as appropriate.

Response

We agree. We will develop a new Interactive Video Teletraining (IVT) program on EV-STAR
for field office staff. The training will discuss the new E-Verify alerts that are currently in
development with VIP/CSR and SSNAP and will explain why it is important for us to use EV -
STAR. We expect to release this IVT by September 2011.




                                               F-3
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Cylinda McCloud-Keal, Director, Philadelphia Audit Division

   Carol Madonna, Audit Manager

Acknowledgments

In addition to those named above:

   Mary Dougherty, Auditor-in-Charge

   Michael J. Brooks, Auditor

   David Domzalski, Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-03-09-19052.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
